<html>
<title> - AN INDEPENDENT FEMA: RESTORING THE NATION'S CAPABILITIES FOR EFFECTIVE EMERGENCY MANAGEMENT AND DISASTER RESPONSE</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]


 
        AN INDEPENDENT FEMA: RESTORING THE NATION'S CAPABILITIES
                        FOR EFFECTIVE EMERGENCY
                    MANAGEMENT AND DISASTER RESPONSE

=======================================================================

                                (111-32)

                                HEARING

                               BEFORE THE

                              COMMITTEE ON
                   TRANSPORTATION AND INFRASTRUCTURE
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                              MAY 14, 2009

                               __________


                       Printed for the use of the
             Committee on Transportation and Infrastructure




                  U.S. GOVERNMENT PRINTING OFFICE
49-948                    WASHINGTON : 2009
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="adcaddc2edced8ded9c5c8c1dd83cec2c083">[email&#160;protected]</a>  


             COMMITTEE ON TRANSPORTATION AND INFRASTRUCTURE

                 JAMES L. OBERSTAR, Minnesota, Chairman

NICK J. RAHALL, II, West Virginia,   JOHN L. MICA, Florida
Vice Chair                           DON YOUNG, Alaska
PETER A. DeFAZIO, Oregon             THOMAS E. PETRI, Wisconsin
JERRY F. COSTELLO, Illinois          HOWARD COBLE, North Carolina
ELEANOR HOLMES NORTON, District of   JOHN J. DUNCAN, Jr., Tennessee
Columbia                             VERNON J. EHLERS, Michigan
JERROLD NADLER, New York             FRANK A. LoBIONDO, New Jersey
CORRINE BROWN, Florida               JERRY MORAN, Kansas
BOB FILNER, California               GARY G. MILLER, California
EDDIE BERNICE JOHNSON, Texas         HENRY E. BROWN, Jr., South 
GENE TAYLOR, Mississippi             Carolina
ELIJAH E. CUMMINGS, Maryland         TIMOTHY V. JOHNSON, Illinois
ELLEN O. TAUSCHER, California        TODD RUSSELL PLATTS, Pennsylvania
LEONARD L. BOSWELL, Iowa             SAM GRAVES, Missouri
TIM HOLDEN, Pennsylvania             BILL SHUSTER, Pennsylvania
BRIAN BAIRD, Washington              JOHN BOOZMAN, Arkansas
RICK LARSEN, Washington              SHELLEY MOORE CAPITO, West 
MICHAEL E. CAPUANO, Massachusetts    Virginia
TIMOTHY H. BISHOP, New York          JIM GERLACH, Pennsylvania
MICHAEL H. MICHAUD, Maine            MARIO DIAZ-BALART, Florida
RUSS CARNAHAN, Missouri              CHARLES W. DENT, Pennsylvania
GRACE F. NAPOLITANO, California      CONNIE MACK, Florida
DANIEL LIPINSKI, Illinois            LYNN A WESTMORELAND, Georgia
MAZIE K. HIRONO, Hawaii              JEAN SCHMIDT, Ohio
JASON ALTMIRE, Pennsylvania          CANDICE S. MILLER, Michigan
TIMOTHY J. WALZ, Minnesota           MARY FALLIN, Oklahoma
HEATH SHULER, North Carolina         VERN BUCHANAN, Florida
MICHAEL A. ARCURI, New York          ROBERT E. LATTA, Ohio
HARRY E. MITCHELL, Arizona           BRETT GUTHRIE, Kentucky
CHRISTOPHER P. CARNEY, Pennsylvania  ANH ``JOSEPH'' CAO, Louisiana
JOHN J. HALL, New York               AARON SCHOCK, Illinois
STEVE KAGEN, Wisconsin               PETE OLSON, Texas
STEVE COHEN, Tennessee
LAURA A. RICHARDSON, California
ALBIO SIRES, New Jersey
DONNA F. EDWARDS, Maryland
SOLOMON P. ORTIZ, Texas
PHIL HARE, Illinois
JOHN A. BOCCIERI, Ohio
MARK H. SCHAUER, Michigan
BETSY MARKEY, Colorado
PARKER GRIFFITH, Alabama
MICHAEL E. McMAHON, New York
THOMAS S. P. PERRIELLO, Virginia
DINA TITUS, Nevada
HARRY TEAGUE, New Mexico

                                  (ii)

                                CONTENTS

                                                                   Page

Summary of Subject Matter........................................    iv

                               TESTIMONY

Gispert, Larry, Director, Hillsborough County Emergency 
  Management.....................................................     9
Hauer, Jerome, Chief Executive Officer, The Hauer Group..........     9
Honore, Ret., Lieutenant General Russel L., United States Army...     9
Larson, Larry, Executive Director, Association of State 
  Floodplain Managers............................................     9
Moss, Mitchell, Professor, Henry Hart Rice Professor School of 
  Urban Policy and Planning, New York University.................     9

          PREPARED STATEMENTS SUBMITTED BY MEMBERS OF CONGRESS

Mitchell, Hon. Harry E., of Arizona..............................    27
Norton, Hon. Eleanor Holmes, of the District of Columbia.........    28
Oberstar, Hon. James L., of Minnesota............................    31
Shuster, Hon. Bill, of Pennsylvania..............................    38

               PREPARED STATEMENTS SUBMITTED BY WITNESSES

Gispert, Larry...................................................    44
Hauer, Jerome....................................................    55
Honore, Ret., Lieutenant General Russel L........................    57
Larson, Larry....................................................    58
Moss, Mitchell...................................................    72

                       SUBMISSION FOR THE RECORD

Gispert, Larry, Director, Hillsborough County Emergency 
  Management, response to request for information from the 
  Committee......................................................    52

                         ADDITION TO THE RECORD

James Lee Witt Associates, a part of Global Options, James L. 
  Witt, Cheif Executive Officer, written testimony...............    77

[GRAPHIC] [TIFF OMITTED] T9948.001

[GRAPHIC] [TIFF OMITTED] T9948.002

[GRAPHIC] [TIFF OMITTED] T9948.003

[GRAPHIC] [TIFF OMITTED] T9948.004

[GRAPHIC] [TIFF OMITTED] T9948.005

[GRAPHIC] [TIFF OMITTED] T9948.006

[GRAPHIC] [TIFF OMITTED] T9948.007

[GRAPHIC] [TIFF OMITTED] T9948.008

[GRAPHIC] [TIFF OMITTED] T9948.009



HEARING ON AN INDEPENDENT FEMA: RESTORING THE NATION'S CAPABILITIES FOR 
          EFFECTIVE EMERGENCY MANAGEMENT AND DISASTER RESPONSE

                              ----------                              


                        Thursday, May 14, 2009,

                  House of Representatives,
    Committee on Transportation and Infrastructure,
                                            Washington, DC.
    The Committee met, pursuant to call, at 12:15 p.m., in Room 
2167, Rayburn House Office Building, the Honorable James 
Oberstar [Chairman of the Committee] presiding.
    Mr. Oberstar. The Committee will come to order, with 
apologies for the repeated votes on the House Floor that, 
however, will leave us in continuity for the next couple of 
hours.
    I want to thank Mr. Mica for joining me in this hearing and 
our panel for participating.
    We will receive testimony today on the performance of FEMA, 
on whether the agency can effectively carry out its essential 
function of helping communities and their residents to prepare, 
to respond, to recover, to mitigate disasters and emergencies 
in their role within the Department of Homeland Security.
    My relationship with this organization goes back a very 
long way, to a time when one of your predecessors, Mr. Mica, 
Bill Klinger, was my partner on the Investigations and 
Oversight Subcommittee in the mid-1980s. When then President 
Reagan made a radical proposal to eliminate Federal funding in 
support to communities and States for disasters, a hue and cry 
rose up across the Country, especially the State of 
Pennsylvania, where a Member of Congress from the Republican 
party had just experienced in his district a disastrous flood 
and needed the support of the then Civil Defense Agency.
    So at his instance, Mr. Klinger and I gathered witnesses 
and communities who had been engaged in disaster response, 
relief, as well as mitigation from across the Country and had 
an extensive two-day hearing, the end of which was the Member 
of Pennsylvania led this charge, I invited to participate with 
us in drafting legislation that resulted in creation of FEMA--
although it was initiated by Jimmy Carter, it really was still 
Civil Defense in those days--and restructured the financing, 
set the partnership and the framework for the program in 
Federal law, which had not been done, it had been done by 
administrative action.
    Then I asked this Member to introduce the bill and I would 
be a cosponsor, and, Mr. Mica, he said, well, you are the 
Chairman of the Committee; it is unusual for a Republican in a 
minority position. I said, no, you had the guts to stand up to 
your administration, I want you to sponsor the bill. His name, 
Tom Ridge. Years later, when he was designated to be Homeland 
Security Secretary, he came up to see me and said, you know, 
you got me into all this mess, you started it all. And we have 
had that partnership for all these years.
    As an independent agency, FEMA responded effectively to a 
wide range of natural disasters: the North Ridge Earthquake, 
the 1993 Midwest floods, the 1993 terrorist attack on The World 
Trade Center, the 2001 September 11 attack. FEMA was considered 
a model government agency.
    But then, in the aftermath of September 11, the Bush 
Administration proposed a Homeland Security Department, 
consolidating 22 agencies into one department, and our former 
Chairman, Mr. Young, and I were called, along with other Full 
Committee Chairs and Ranking Members from the House and Senate 
to the White House for a conference, and in that meeting both 
Mr. Young and I spoke up against including Coast Guard and FEMA 
in the Department of Homeland Security. They have a different 
mission. They have different roles. There could be a liaison, 
there could be a connect to Homeland Security.
    In fact, just a little bit of overture dictum, when I 
served on the Pan Am 103 Commission, along with our former 
colleague, Mr. Hammerschmidt, who was Ranking Member of the 
Full Committee, our Pan Am 103 Commission recommended a small, 
nimble, mobile unit consisting of a half dozen or so cabinet 
officers or agency heads that would form an intelligence unit 
that would evaluate and disseminate information on aviation 
terrorism. This was in 1990. Not a department, but a small unit 
that would be quick and effective, that would coordinate all 
the agencies. So I proposed that to the President, instead of 
this massive department. I said it will grow into a huge 
monstrosity.
    Mr. Young pointed out, then-Chairman Young, that every year 
we know there are going to be disasters. Our terrorism, our 
fear in the heartland is flood, white-out from blizzards, 
hurricanes, storm surges. That is our terror. We shouldn't have 
FEMA in this organization. Well, we know what happened; the 
Department of Homeland Security was created, FEMA was absorbed 
into it, and, just as I said at the time in this Committee 
room, money is fungible, people are movable, and they will move 
people out of FEMA, they will move money out of FEMA and leave 
it emasculated.
    We have spent 10 times more on terrorism preparedness, $15 
billion, than we have on emergency management preparedness in 
the last six years, $1.5 billion on emergency preparedness; $15 
billion on terrorism preparedness. We just have to look around 
this Capitol complex to see the expenditures the Congress is 
making on terrorism prevention and preparedness.
    Well, when the bill came to the House Floor, I said, in 
support of an amendment I offered to delete FEMA from the 
Department of Homeland Security, I said, this is July 2002. 
Let's fast forward to July 2003. The majority has prevailed, 
FEMA is a box in the mammoth bureaucracy of the Department of 
Homeland Security. The flood waters are swirling around your 
city. You call for help, you get the Department of Homeland 
Security.
    The switchboard sends your call to the under secretary's 
office, which looks up disaster on their organizational chart 
and sends you to the Congressional liaison office, which then 
promises to get a message back to you in 24 hours. Eventually, 
they find FEMA, by which time you are on the roof of your 
house, waving a white handkerchief and screaming for help. 
FEMA, the word comes back, sorry, is looking for suspected 
terrorists someplace and will get back to you as soon as we 
can.
    I had no idea that Katrina would strike, but it did. 
Several of our colleagues on both sides of the aisle went back 
and said Oberstar said something about this back then and 
repeated my words. So here we are in February of this year with 
bipartisan support in this Committee, and I introduced the FEMA 
Independence Act of 2009 to reestablish FEMA as an independent 
cabinet level agency reporting directly to the President.
    Secretary Napolitano yesterday said, with the President's 
blessing, that the Administration does not have plans to remove 
FEMA from Department of Homeland Security, and I understand 
that competing priorities and calls on the President's time and 
on the time of the various cabinet officers who are feeling 
their way, trying to get themselves into position, but I think 
we on this Committee have been doing this a much longer time 
than the Administration has, and I think we know more about it 
than they do.
    So we are going to proceed with this legislation and 
proceed with this hearing, and take the views of the witnesses 
at our table today. Thank you for listening to my monologue.
    Mr. Mica?
    Mr. Mica. Well, first, I have to thank you, Mr. Oberstar, 
for your leadership on this issue and also holding this hearing 
today; it is an important hearing. We both have similar stories 
to tell about the progression that has taken to get us to this 
day with FEMA under Homeland Security. I remember giving a very 
eloquent set of remarks in the Government Reform Committee, 
which the proposal to combine 22 agencies into one Homeland 
Security Department, and I questioned putting FEMA and Coast 
Guard, exactly your position, into that agency, and then having 
it run efficiently.
    At the time, there was--well, first, the Bush 
Administration didn't want to do it, then they combined it all 
together and were trying to convince everyone it would work, 
and I said no way, Jose. After I gave that speech, I was asked 
to tone down my rhetoric by the Administration, but it is 
unfortunate that what we predicted came through. Unfortunately, 
also, with the experience we had with Katrina.
    I support you strongly. I am a cosponsor of H.R.--I believe 
it is--1174, ready to take it up at any time and pass it out of 
our Committee, because it is important. I think today's 
hearing--and we are fortunate you have some excellent 
witnesses, one of them from my State.
    Let me recognize Larry Gispert. He is not from my district, 
but from Hillsborough, the west side of the State, Emergency 
Management Services Director there. Certainly, Florida, I 
think, is one of the premier States that has shown how you deal 
with disasters, because we have been hit so many times. But 
fortunate, too, I understand on Monday Craig Fugate, our former 
State director, will be sworn in as the President's selection 
to head FEMA. Excellent choice; couldn't do better. Tested, 
qualified, sees the full picture.
    So we have had our fair share. Even in my district I have 
had three in the last ten years. I had three hurricanes and two 
tornadoes, fires, floods. We have had everything but locusts, 
and we are waiting on that to come.
    But I am pleased to join you today in a continued call to 
look at the mistakes that were made.
    I have a chart which I made up. Let me just describe, in 
closing, the problem that we face. We have just been joined by 
our new Ranking Member here. You get to see this too.
    But we have, what is it, POTUS, and we have now got DHS, 
and now we have got FEMA under here. What Mr. Oberstar and I 
recommend is we have the President and then we have FEMA here, 
and what we had in Katrina, we had the President, we had DHS, 
but we also had DOD, and then we had this other issue of the 
State National Guards.
    We also, of course, had other agencies like Coast Guard, 
which did a great job. And we had confusion here, here, here. 
We have actually put in place--I guess the President put in 
place to deal with this DOD issue a--what was it, the task 
force?--Task Force Katrina. So this is what we ended up with 
and this is really what I think works the most efficiently.
    The President really is the only one that has the ability 
to call out DOD and the other agencies. The Chairman just 
described the call to DHS. It was somewhat humorous, everyone 
was chuckling, but there is so much truth to what he described. 
We have got to get back to that model. We lost days in here and 
people died and we lost property. It was difficult to tell who 
was in charge of what, and we have got to simplify that. So I 
am prepared for this model, having the President in charge, 
having FEMA return to its role and a direct relationship and 
ability to respond.
    I have asked leaders who they think is in charge in several 
meetings we have had in the past. You get different answers, 
even with some of the changes that have been made in an attempt 
to try to clarify. This is the model we need and I look forward 
to working with you.
    Finally, too, the Stafford Act, at some point, we need 
revisions there. We need the ability to get assets for smaller 
disasters to communities. Mr. Ross, from Arkansas, and myself, 
we had nightmares. I think he had tornadoes, I know I had 
tornadoes. I had trailers, and I would love to hear, we don't 
have the FEMA folks here, what they have done with the hundreds 
of thousands of trailers that they had, but we had them down 
the street in storage with FEMA paying rent on them, and I had 
people without housing, which is totally unsatisfactory. At one 
point we had six attorneys on the phone trying to figure out 
how to resolve this situation. Six attorneys. We ended up not 
being able to get them any housing.
    So just again, a clear chain of command and then some 
flexibility so that we can make certain that, when we have a 
disaster, the people that need aid get a positive response and 
assistance from their government at every level.
    Thank you.
    Mr. Oberstar. Thank you very much for that chart, with 
which I fully agree.
    Mr. Mica. I would submit that chart to the record.
    Mr. Oberstar. To which we could add within the Department 
all those several layers of internal bureaucracy so that the 
FEMA director never got to the Secretary of Homeland Security. 
Never got to him.
    Mr. Mica. I would ask, also, Mr. Shuster was active in 
trying to look at what went wrong with Katrina. He isn't with 
us, and I would like to submit--he is the former Chairman of 
the Subcommittee, I believe.
    Mr. Oberstar. Yes. And he did splendid work during that 
time.
    Mr. Mica. So I would like to submit----
    Mr. Oberstar. Without objection, his statement will be 
included in the record.
    I would like to now recognize our Chair of the 
Subcommittee, who had another event that she had to attend and 
is now back with us.
    Ms. Norton, thank you for returning.
    Ms. Norton. Thank you.
    Mr. Oberstar. And for the splendid work that you have done 
over the last two years of hearings and inquiry into FEMA. You 
have really laid open this issue we are addressing today.
    Ms. Norton. Well, I very much thank you, Mr. Chairman. All 
of us who are Subcommittee Chairs are trying to still live up 
to the high mark you set for us, as impossible as that is. I do 
want to thank you for your continued persistence in what can 
only be called the reform of FEMA.
    I concede that I don't see much appetite, not as yet, on 
the part of the Administration or of Congress to take on the 
behemoth task of unraveling and disjointing FEMA from the 
bureaucracy in which it is now encased. But that does not mean 
that your persistence in pointing out just how hobbled the 
agency has been within that bureaucracy should cease. The only 
way to get action is to do precisely what you are doing now. So 
I was pleased to join you as a cosponsor of your bill, the bill 
that the four of us, I believe, have all sponsored.
    Mr. Chairman, with you, there was certain logic we all saw 
in putting FEMA, which is a major disaster agency, within the 
major disaster bureaucracy that we created called the 
Department of Homeland Security. When it failed, worse than any 
government failure, I think, in the United States in our 
history, we moved to enact the Post-Katrina Emergency Reform 
Act, because they wanted to give FEMA a chance to show that 
with more flexibility, with the oversight you and my own 
Subcommittee had given, there could be improvements, 
recognizing how difficult it is to undo a structural change as 
new as the Department of Homeland Security was.
    I must say to you, Mr. Chairman, having had more 
Subcommittee hearings in my combined jurisdictions than any 
Subcommittee within your jurisdiction, and a dozen hearings on 
FEMA alone, I must say to you that that has been an exercise in 
frustration rather than improvement based on oversight, yours, 
sir, and mine. We have had hearings on every conceivable 
element of FEMA: its housing plan, which was abysmally late; 
its emergency food supply plan, which is at the heart of why it 
exists, for post-disaster relief; its response to all hazards, 
which was the whole reason for putting it in that bureaucracy 
in the first place, all hazards, because the response is 
essentially the same regardless of hazard, the recovery is 
essentially the same.
    And for me, who has the primary jurisdiction over FEMA, 
when you consider that Homeland Security, the Committee on 
which I also serve, has jurisdiction only over preparing for 
terrorist events. Well, 99.9 percent of what FEMA does is 
exactly what FEMA did before 9/11 and before the anthrax 
attacks. What the American people look to FEMA to do is to take 
care of the American people in hurricane season, in tornado 
season, in flood season, yes, and in icicle season with the ice 
storms in Kentucky and in the Midwest. And when we see 
shortcomings there, we begin to wonder what the Department of 
Homeland Security is there for. Has this huge umbrella done us 
any good? And if we are supposed to wait, how long are we 
supposed to wait.
    Now, Mr. Chairman, I ran a Federal agency once and I know 
that it is like turning around a hippopotamus even to make a 
small one change, and I looked at the Department of Defense to 
get some comparison, and the Department of Defense, more than 
50 years ago, had to do the same thing we are doing here, 
consolidate existing departments; and if you look at the GAO 
reports on DOD, you will see that they will say that they still 
have serious management failings.
    I don't think that you, Mr. Chairman, nor I, were asking 
for the impossible here. We were just asking to see some 
improvement that some response to Congressional criticism post-
Katrina, and that, I believe, is the real impetus for this. I 
didn't want to hear the word trailer again, but this year we 
were still talking about trailers. If you want to know the 
source of my greatest frustration--and I will not rest until it 
is done--in the middle of the stimulus package, we learned that 
there were $3.4 billion still outstanding in the Gulf Coast. 
You have got to be joking. We are trying to get money to people 
in order to do precisely what they were supposed to be doing, 
rebuilding their hospitals, putting people back to work, and 
these people have had hung up for years $3.4 billion? I almost 
climbed the walls in this very room.
    Senator Mary Landrieu was so put out that she put in to the 
last omnibus bill a section that would create an arbitration 
panel of panelists appointed by the President of the United 
States. That may be too large a response. We now have tried to 
rein it in. I have asked for a status report on the $3.4 
billion. Is it still growing?
    We have a new Secretary and she is not a part of any of 
this. I am willing to work with her to see what she can do, 
although I believe these are deeply embedded within what we 
have created, and we have to take responsibility for it. But 
the $3.4 billion is what blows me out of the water, Mr. 
Chairman. Not able to reach a decision. Nowhere in the 
bureaucracy is there the ingenuity--and I do not think it takes 
much--to give people deadlines, to bring in an outside force, 
even if it is not arbitrators, to give them final authority.
    Indeed, in doing research on this, Mr. Chairman, I found 
that the AAA, the American Arbitration Association, had been 
called in by the Federal Government to do precisely for that, 
when a number of States, with their big Medicaid programs, were 
stuck on stupid, and that they had straightened that out. So 
there is even precedent for doing it.
    I like government; I am not one of these people. But I can 
understand why people want to get rid of government when they 
see this kind of performance. I am not sure what the answer is.
    If your bill, our bill does not move this time, Mr. 
Chairman, I believe we will have to, at the very least, take 
action to give FEMA greater, considerably greater autonomy 
within DHS. I had no response from the Administration. I know 
they have a lot on their plate. Typically, until there is a 
failure, people don't act. So, you know, if there is another 
great big failure, they will see people rushing to say, Mr. 
Oberstar, would you please do something about your bill. But 
you and I can't wish for another big failure.
    We have seen duplication in money, we have seen the 
bleeding of staff and resources out of FEMA into terrorism, 
even after the aftermath of 9/11. Rather than throw our hands 
up, you are doing, Mr. Chairman, what you do best, and that is 
to look for a remedy, and I am with you in looking for that 
remedy. I want to be with you in finding that remedy this 
session. But I ask you, as well, please don't leave us in 
another session if this Administration does not come with us, 
if the leadership does not come with us. I then think we have 
to move ahead and give the kind of autonomy, the kind of answer 
and greater autonomy that it will be very difficult to refuse, 
given the record you have made in this hearing and in prior 
hearings.
    And I thank you very much for your great persistence in not 
giving us on what is necessary to make FEMA and DHS perform as 
Congress intended. Thank you, Mr. Chairman, again.
    Mr. Oberstar. Thank you very much, Chair Norton, for a very 
detailed discussion of the hearings, the highlights of the 
hearings that you have held, for the work that you have done, 
the hours you invested in this. It is my intention to pursue 
this bill. We will move it through Subcommittee and we will 
move it through Full Committee, and that is the way to get 
people's attention around this town.
    I want to quote from Representative Shuster's statement, 
which we are going to accept for the record. He quotes from the 
Katrina report--you served on that Commission--which says 
``Critical response decision points were assigned to the 
Secretary of Homeland Security. The Secretary executed these 
responsibilities late, ineffectively, or not at all. The 
reforms,'' he says, ``we made in the Post-Katrina Reform Act to 
address this problem have not been implemented. We need to 
implement those reforms.''
    Now I yield to the distinguished Ranking Member of the 
Subcommittee, Mr. Diaz-Balart, following which we will take 
testimony from the panel of witnesses.
    Thank you, Mr. Diaz-Balart, for your participation all 
throughout the hearings we have held so far in this session of 
Congress.
    Mr. Diaz-Balart. Thank you, Mr. Chairman. Let me actually 
thank you for this hearing and for your leadership on such an 
important issue. As a Member that represents the State of 
Florida, again, a State that unfortunately sees our fair share, 
or beyond our fair share of storms, I really appreciate the 
important role that FEMA plays in disasters and recovery after 
disasters.
    We have some very good news, as you well know, Mr. 
Chairman. Greg Fugate has now been confirmed as the new 
Director of FEMA. Chairwoman Norton and I, in a meeting that 
she held in south Florida, were able to once again witness 
firsthand, frankly, the job that Florida has been doing, 
probably the best in the Nation, and part of the reason is 
because of the leadership of Mr. Fugate. So I am excited that 
now he is going to be up here.
    But as you have said and as Ranking Member Mica has said, 
and also Chairman Norton has said, obviously, there have been 
some improvements after Rita, after Katrina, but, as you just 
said yourself, right now, a lot of things have yet to be 
implemented, despite the passage of the 2006 bill. They are 
obviously inconsistent policies and they slow the decision-
making, and those are just some of the symptoms with the 
bureaucracy and the bureaucratic makeup that now FEMA has to 
deal with, because they are buried into DHS.
    That is why I am so pleased to be a cosponsor of the bill, 
of the FEMA Independence Act of 2009, along, again, obviously, 
with the leadership of the Chairman, with the Ranking Member, 
Chairwoman Norton as well. I think it is a common sense 
approach to do that. The overarching issue obviously is that we 
must ensure that FEMA has the necessary authority, the tools, 
the resources, the flexibility to effectively and efficiently 
carry out its vital mission.
    So I look forward to hearing from the witnesses today. I 
want to once again thank the Chairman for his leadership and I 
look forward to listening to the testimony and to be able to 
move forward on what I think is possibly one of the most 
important pieces of legislation that we might be doing this 
year. Thank you, sir.
    Mr. Oberstar. Thank you very much for your comments, for 
your support, your partnership in this initiative.
    Our first panel includes Lieutenant General Russel Honore, 
now retired, author of this splendid book. Thank you for your 
contribution. I had not read it. I knew it was coming, heard 
about it. Survival: How A Culture of Preparedness Can Save You 
and Your Family From Disasters. It promises to be a very 
important contribution to our body of work on this subject of 
preparedness.
    Larry Larson, Executive Director of the Association of 
Floodplain Managers; Jerome Hauer, Chief Executive Officer of 
The Hauer Group; Larry Gispert, Hillsborough County Emergency 
Management; Dr. Mitchell Moss, Professor, Henry Hart Rice 
School of Urban Policy and Planning at New York University.
    We will begin, General Honore, with you.

TESTIMONY OF LIEUTENANT GENERAL RUSSEL L. HONORE, RET., UNITED 
 STATES ARMY; LARRY LARSON, EXECUTIVE DIRECTOR, ASSOCIATION OF 
   STATE FLOODPLAIN MANAGERS; JEROME HAUER, CHIEF EXECUTIVE 
OFFICER, THE HAUER GROUP; LARRY GISPERT, DIRECTOR, HILLSBOROUGH 
  COUNTY EMERGENCY MANAGEMENT; AND MITCHELL MOSS, PROFESSOR, 
HENRY HART RICE PROFESSOR SCHOOL OF URBAN POLICY AND PLANNING, 
                      NEW YORK UNIVERSITY

    General Honore. Thank you, Mr. Chairman and Members 
present. It is an honor to be here today to share a few ideas 
with you on this topic of great relevance to our Nation. I had 
the experience of some six years as a General officer in the 
United States Army and on the Joint Staff to support FEMA in 
response to hurricanes and other disasters in the United 
States, and my bottom line recommendation is that FEMA is too 
important for the working poor people of this Country to be 
hidden inside of DHS. DHS is focused on protecting this 
Country. FEMA should be focused on helping our people before, 
during, and after natural and manmade disasters.
    I too lay witness when FEMA was made part of DHS, and 
admiring that piece of work is like admiring your marksmanship 
when you are shooting at your foot; it was wrong then, it is 
now wrong, and it will continue to be wrong. And this is no 
criticism on the Secretary of the Department of Homeland 
Security, or the very competent man, Mr. Fugate, who is about 
to take it. This is not about the leadership, it is about the 
bureaucracy and what has gone wrong, and what was the intent of 
the Stafford Act and what it has become.
    Points made earlier about the amount of money spent in 
preparedness, one need to only look and remember that we need 
to reform how we spend the Stafford Act money in that we have 
governors who don't want anybody to tell them what to do, but 
when a disaster happens, they want to turn the disaster 
recovery over to FEMA so they can go on making speeches and 
doing whatever else they do. We need to change that. We need to 
put the responsibility back on State government and FEMA being 
in support of them.
    It is interesting that one State rebuilt its football 
stadium, but the schools will not open. How did the State 
legislature figure out how to open the football stadium and 
didn't figure out how to open the schools for the poor 
children? That is a damn shame. That is why the whole paradigm 
of how we spend the Stafford act money needs to change, Mr. 
Chairman. It is too much of a responsibility on FEMA and the 
governors get a ride.
    And I know a lot of governors said we have got a great 
plan, we know how to do this, but they have not fought a 
Katrina, either. Katrina broke everything, and any State that 
gets a Katrina that floods a city of over a quarter million 
people are going to have the same issues. And it is not so much 
about the response to saving lives; that will be done. It is 
the recovery and how we rebuild schools, how we rebuild 
hospitals. The city of New Orleans has more hotel rooms today 
than they had before Katrina, yet the 9th Ward is not rebuilt.
    And the poor people who rely on most help from the 
government can't seem to get that help, and I think much of 
that is ingrained in the bureaucracy of layering, where the 
governors and the State legislators have passed the entire 
responsibility over to FEMA. We saw last year, after 
hurricanes, as long as everything is going well, the State 
governments are out cheerleading their people to do the right 
thing. As soon as there is a bottle of water not in the right 
place, it is FEMA'S problem.
    For every dollar we spend in preparedness, we save $9 in 
response. The governors of this great United States need to be 
empowered with Federal money to preposition water and food 
inside their States, and it is under their control. This habit 
we have of depending on FEMA to bring water the day after the 
storm is broke. Having FEMA embedded inside of Department of 
Homeland Security is broke. The Department of Homeland Security 
is focused on protecting the Country; FEMA is focused on the 
survival of the people and to get them back in their homes.
    The two are incongruent. We need to fix that and this 
Congress needs to make that happen. And if you can't make it 
happen this year, then separate the budget so FEMA can buy the 
right things they need, preposition food and water inside the 
States that are most vulnerable and be able to take care of our 
people, as opposed to going through a chain of command that can 
take money from and reset priorities.
    I bring that to you as a humble servant for 37 years, 3 
months, and 3 days in uniform of this great United States, and 
it is horrible to see how ineffective the current system is. 
And, again, it is not personal; there are just too many layers 
of bureaucracy, and we need to put the responsibility back on 
the governors to take care of their people and FEMA give them 
resources to make that happen. Thank you, sir.
    Mr. Oberstar. Thank you very much. You summarized it very 
well. I think you sized up the situation with clarity formed 
and honed by experience. Thank you.
    Mr. Larson.
    Mr. Larson. Thank you, Mr. Chairman and Members of the 
Committee.
    The Association of State Floodplain Managers is grateful to 
this Committee for its leadership in exploring the important 
role that an independent FEMA plays in the Nation's economic 
and sustainable future.
    We acknowledge the declaration that the Administration made 
yesterday, that they support FEMA remaining in DHS for now. In 
any case, we agree that it is important that this record be 
established of what the issues are with the current 
organization not only for all of us, but for FEMA and DHS to 
work on those issues to see if we can get them resolved so that 
we have effective emergency management for the Nation.
    Craig Fugate, the new FEMA Director, knows many of these 
issues and he surely knows the FEMA partners that are 
represented up here, who have worked in every way we can to 
address these issues. We understand from some of those folks 
that Mr. Fugate intends to work to implement those elements of 
the 2006 Post-Katrina Act that we have talked about here that 
have not yet been implemented, to add some authority and 
autonomy to FEMA. We also have been assured that he has support 
of Secretary Napolitano to do that. Let's hope that is the 
case.
    Actually, the resurfacing of the debate, as the way the 
General has stated, today is about mission priorities and 
organizational structure. FEMA'S reputation rises and falls not 
only on its own performance, but also on its ability to operate 
within the constraints that it must have in the organization. 
As we have talked about here, when it was independent, one of 
those reasons that it was effective in those events we have 
talked about was the fact that it did not have to clear every 
decision, every rule, every policy with some parent agency that 
wanted to tweak it to fit its mission, and not the FEMA 
mission.
    Such is not the case today, we know that, and making that 
adjustment is going to be very difficult. Those missions that 
we have talked about, the mission of DHS states that its 
mission is preparedness response. It doesn't even mention the 
word mitigation, and it hardly mentions the word recovery; 
whereas, that cannot be true for FEMA or FEMA is going to fail.
    The terrorism prevention in the DHS mission is not hazard 
mitigation. Some people would like to claim it is. It is not. 
It is inherently an enforcement intelligent gathering function 
before an event occurs; whereas, hazard mitigation must involve 
communities and all those people the General talked about to 
get full inclusion. That is the FEMA mission. Neither of those 
missions are wrong for those agencies, you just need to 
understand they are totally different.
    Some feel that FEMA has regained some of its effectiveness 
in Ike and Gustav, but I would submit that that is primarily in 
the area of response, it is not in the area of mitigation. FEMA 
has not moved the area of mitigation ahead since the days of 
James Lee Webb; it is still sitting where it was. There is lots 
to be done there and it has not gotten better.
    This culture issue, the culture of DHS is, by necessity, 
closed and secretive. That is what they do. The culture of FEMA 
has to be exactly the opposite, open and inclusive. A few 
examples. You have mentioned some; let me mention a few we have 
seen; more is in our testimony. This agency effectiveness and 
declining morale; diversion of human resources and financial 
resources; slowdowns due to these layers of bureaucracy. There 
is a ripple effect, also. As States try to mirror DHS, they are 
doing the same thing, as the General mentioned, and at the same 
time, they are diverting their money. In a way, they are 
chasing the dollars, because that is where the dollars are.
    Flood mapping is a good example of this disconnect in FEMA 
DHS. You in Congress have been very supportive of the increased 
effort to get better flood maps in the Nation. DHS has fought 
that every step of the way. Despite the support of Congress and 
OMB, DHS has fought it.
    DHS recently gave a grant to build an Emergency Operating 
Center in the floodplain, a critical facility in the 
floodplain, without having it elevated or anything. No 
floodplain regulations applied to it. Well, so much for 
integrating because they are in the same agency. Those kinds of 
things can't and shouldn't happen.
    The IT functions, the Web site. FEMA needs to have access 
and use the Web site to get to citizens, communities, and so 
on. The security of the DHS Web site scenario doesn't allow 
that to happen.
    As a Nation, we cannot afford to continually fund the cycle 
of build, disaster, bailout, another disaster and bailout over 
and over again. An independent FEMA provides an opportunity to 
break this devastating cycle of natural disasters through an 
emphasis on mitigation, along with its other functions. Our 
conclusion, we feel that FEMA must be allowed to be FEMA. An 
effective and nimble FEMA is essential to the disaster 
resilience of our Nation, our communities, and our citizens.
    We still believe they can do this better and more 
effectively as an independent agency. But, like you, if this 
does not happen, we will be working the work of FEMA and DHS to 
implement the changes of the Post-Katrina Act. If they don't 
work along with you, we will be back again to push for FEMA 
becoming an independent agency.
    Thanks again to the Committee.
    Mr. Oberstar. Thank you very much for that testimony, that 
shocking statement about DHS building a preparedness center in 
the floodplain and then waiving all the requirements. We will 
come back to that.
    Mr. Hauer.
    Mr. Hauer. Thank you, Mr. Chairman. Thank you to the 
Members of the Committee for inviting me here today. My 
comments will be brief.
    As you can see from my biography, I have worked in 
emergency management public safety at every level of 
government, at the Federal, at the State, at the local level, 
under two different mayors, for seven years under Senator, then 
Governor Evan Bayh, and for one president. I have worked every 
kind of disaster that you can imagine and any kind that you can 
think of.
    I am in complete agreement with you that FEMA needs fixing. 
We are at a point in time where we can never again allow 
American citizens to die in a hospital, waiting for help, 
because nobody was paying attention. I have seen FEMA in its 
heyday and I have seen it in its worst. My concern today, as 
you move forward, is that you do it in a way with this 
legislation that allows FEMA to succeed as an agency if in fact 
it can be split out of DHS.
    In DHS, FEMA has focused on terrorism, I agree with you. 
There is no question the pendulum has swung too far in the 
other direction. I have talked to fire chiefs and police chiefs 
all over this Nation, and they all are telling me that they 
have got to get away from focusing solely on terrorism. They 
have got to get back to the basics of firefighting, training 
for firefighting, training for law enforcement, and training 
for emergency management. The problem they run into is that the 
money that is coming down from DHS is very terrorism-centric 
and it prevents them from doing some of the things they sorely 
want to do and sorely need to do.
    I am in complete agreement with you that FEMA needs to be a 
freestanding agency. But I would urge you to ensure that, as it 
becomes a freestanding agency, that pieces and parts of FEMA 
are not left behind in DHS, because the FEMA that will come out 
of DHS will be so stripped of the resources that it will fail. 
So you need to ensure that as you move forward with this 
legislation.
    I am also concerned about your desire to split the 
terrorism response capabilities out of FEMA, because, from my 
perspective, emergency management is emergency management no 
matter what the emergency, and that includes terrorism. Yes, 
the pendulum has swung too far in the terrorism direction, but 
that was a knee jerk reaction on the part of the Administration 
post-9/11, and we have got to ensure that, as FEMA gets moved 
out--and I commend you for your determination to continue this 
legislation--you have got to ensure that the emergency 
management function is maintained and that that includes 
terrorism, that includes earthquakes, that includes tornadoes 
and all the other components that FEMA is supposed to respond 
to.
    We can't have two agencies coordinating the response to 
terrorism. At the end of the day, that would be a disaster in 
and of itself. So as you look at moving FEMA out of DHS, you 
need to ensure the response component includes all hazards, not 
just natural disasters, but it also includes terrorism.
    The second thing, and I know this is politically charged, 
is that the new administrator of FEMA needs the ability to get 
rid of the political hacks that were buried in FEMA as SESers. 
As the new Administration took over, the old administration 
buried a lot of these political hacks, and Craig needs the 
ability to move them out, and the legislation should ensure 
that he has got that ability, because otherwise he is going to 
have people in the agency that feel immune from any 
repercussions that can undermine him as the new FEMA 
administrator.
    Mr. Chairman, I again support all you are doing and I 
support your determination to get FEMA out of DHS. I think that 
there are some land mines as you go about doing that, but I 
think if you keep your eyes open--and I can see that you are--
that FEMA can once again be the kind of agency that this 
Country needs coordinating its emergency response. Thank you, 
and I will answer questions at the end of the session.
    Mr. Oberstar. Thank you very much, Mr. Hauer. I really 
appreciate your seasoned experience over many years and through 
many different administrations. Thanks.
    Mr. Gispert.
    Mr. Gispert. Thank you, Mr. Chairman and Members of the 
Committee. I am Larry Gispert, the Director of Emergency 
Management for Hillsborough County, Florida, the Tampa Bay 
area. I am the immediate past president of the International 
Association of Emergency Managers, IAEM-USA, which is our 
Nation's largest emergency managers association.
    Mr. Chairman, we are aware that the Administration put 
forth their position yesterday that the Federal Emergency 
Management Agency, FEMA, should remain within the Department of 
Homeland Security, DHS. Be that as it may, the position of IAEM 
remains in support of an independent and strengthened FEMA. 
Please permit my testimony that I give today to be used to 
point out areas to strengthen FEMA, regardless of its 
structural location.
    A successful FEMA is one with the authority, independence, 
and flexibility to make final decisions as quickly as possible. 
FEMA must continue working closely with its stakeholders. At 
the local level, our involvement with FEMA continues during the 
long months, and sometimes years, it takes to recover from a 
major disaster. We need to point out that there still remains a 
fundamental difference in the mission of FEMA and DHS. The 
mission of DHS is clearly to prevent the next terrorist attack 
and secure our borders. The mission of FEMA is to respond and 
recover from the impacts of all disasters, regardless of their 
cause.
    It has been said that keeping FEMA in DHS is like requiring 
the Department of Defense to fight the war as well as implement 
diplomacy, which is normally done by the Department of State. 
Like the analogy just given, combining consequence management--
dealing with the impacts--and crisis management, preventing and 
arresting the perpetrators--has proven contradictory, and both 
will suffer from the continuing inclusion. Both missions are 
vitally important to our Country and one should not detract 
from the other.
    Just as there is a difference in mission, there is also a 
mission in culture. FEMA must maintain consensus and buy-in 
from its stakeholders, while DHS is more top-down oriented, 
using mandated and strict procedures. Since the creation of 
DHS, we at the local level have noted a total lack of 
understanding of how States and locals work.
    Some have said that the structure of FEMA within DHS does 
not matter, that good leadership will overcome poor structure. 
Any student of organizational behavior will tell you that you 
must have both, good leadership and properly laid out 
structure. We would strongly suggest that structure does matter 
because of the significant structural impediments caused by the 
subordination of FEMA to DHS. Some of these include: not 
accepting the Congressionally mandated role of the 
administrator of FEMA as providing the Federal disaster 
leadership; the continued insistence by DHS on appointing a 
principal Federal official, PFO; by assigning functions to the 
Office of Operations Coordination which the Post-Katrina 
Emergency Management Reform Act, PKEMRA, assigned to FEMA.
    Priorities are set through budget requests. FEMA must 
submit its budget request through DHS and not directly to OMB 
for consideration. This permits DHS to reallocate funds to 
programs not related to FEMA'S core mission. Regulations are 
also important tools to implement policy. The additional layers 
of DHS review make it difficult for FEMA to get their rules 
promulgated.
    After the failures of Katrina, Congress passed the PKEMRA 
to give FEMA the clear authority and tools to do its job, and 
put a fence around it to give the protection for its mission 
and resources within the Department. Some contend that the 
passage of the Act has resolved the mission competition within 
the Department. However, key provisions of the Post-Katrina 
Reform Act have not been implemented. The law is being ignored. 
Homeland Security Presidential Decision Directives 5 and 8 have 
not been revised to coincide with the law. We have always 
thought that public law trumps presidential directives. My 
written testimony contains several specific issues concerning 
the lack of compliance by DHS with PKEMRA.
    It is clear to us that a misunderstanding still exists with 
DHS concerning the definition of emergency management and 
incident management. We all know emergency management is the 
overall broad collection of functions specific to disaster 
preparedness, response, recovery, and mitigation. Incident 
management is a smaller subset which deals specifically with 
one incident. IAEM-USA applauds the appointment of Secretary 
Napolitano, Craig Fugate as FEMA Administrator, and Tim Manning 
as Deputy Administrator for Preparedness. We commend the 
President on nominating individuals with prior State and local 
emergency management experience.
    In conclusion, IAEM-USA still strongly recommends that the 
President and Congress consider removing FEMA from DHS and make 
it an independent agency reporting directly to the President 
with the FEMA Administrator as part of the President's cabinet. 
In lieu of this, and FEMA remains within DHS, we strongly 
suggest that Congress insist on the full implementation of 
PKEMRA and consider the issues pointed out in our testimony.
    Mr. Chairman, thank you for permitting my testimony.
    Mr. Oberstar. Well, thank you very much. You have raised 
some very thought-provoking issues here. We will come back to 
them in the question period.
    Dr. Moss.
    Mr. Moss. Thank you, Mr. Chairman. My name is Mitchell 
Moss. I have been on the faculty of New York University for 
about 35 years, and I am going to speak briefly today, since 
some of the other panelists have addressed the key issues 
facing this Committee.
    Let me first say that I admire your prescience for 
anticipating the challenges that would occur when FEMA was 
folded into Homeland Security more than half a dozen years ago. 
It is regrettable that you were right, but now we have to still 
deal with those challenges.
    I want to talk very briefly on two points, and I think they 
were raised earlier.
    FEMA has to do two things. One, it has to mobilize other 
Federal agencies in the disaster and then it has to work with 
civic groups and State and local governments in dealing with 
both recovery and response when disasters occurs. In both cases 
it is much more elegant and certainly easier to do it as an 
independent agency, as the chart we saw earlier today 
indicated.
    It is clear, though, if FEMA were to remain in Homeland 
Security, the challenge is even greater of how to structure it 
to assure that it can do this job; and in some ways it is even 
more ways to pay attention to the legislative challenges 
because, should it remain in this case, then it is essential to 
design an organization so it has the authority to do two 
things, to act quickly and to act flexibly.
    We have developed a great capacity to predict disasters. We 
don't really know when they are going to occur, but we have 
great ability to anticipate hurricanes that we didn't have over 
10 years ago. But we cannot predict the way in which they 
disrupt a community. We simply cannot foresee what they do to 
destroy a community, both its physical and social fabric. And 
when they do occur, disasters don't go away even when the 
hurricane ends. Disasters become part of a fabric of a 
community; they become part of a way of life.
    And the fact is that some disasters--and you can look at 
the floods in Johnstown, Pennsylvania--they are still there. 
The people remember them and they are going to be part of that 
forever. I think that is why FEMA is so important, because it 
is not fighting a battle, it is waging a long-term relationship 
to assure that a community recovers.
    Any organizational structure that adds delay costs lives 
and puts communities at risk, and I think it is essential that 
we design FEMA, should it be independent or should it be part 
of Homeland Security, so that it can provide assistance and 
resources to States and localities quickly and without meeting 
the bureaucratic burdens that come with an agency that has over 
180,000 employees. Let's think about it, FEMA has 2,500 people; 
there are 180,000 people in Homeland Security. How important 
can it be when it constitutes such a small share of an 
organization?
    Mr. Oberstar. Dr. Moss, it is now 215,000 people. It growed 
like top seed, to quote that----
    Mr. Moss. I appreciate the correction and I am going to 
change my remarks to reflect that. Thank you very much.
    The second point I want to make, and I think this is very 
simple and I will just end on this point, is that no matter 
what we do in dealing with disasters, we know they continue to 
occur. Fires, earthquakes, tornadoes, we are going to continue 
to have them. Most of the responsibility for dealing with them 
it is a State and local responsibility. FEMA'S has to be able 
to find ways to deal with the very different conditions that 
occur in all 50 States.
    Having an organization which is accustomed to dealing with 
a single type of strategy doesn't work when you deal with 
communities, each of which has to adapt to its own disaster. I 
think for that reason alone I think it is essential that we 
assure that in any redesign of FEMA we recognize that it has to 
be able to work effectively with State, local, and civic 
groups.
    I want to make one point We have done a study of the 
Stafford Act. I will deal with the staff later. But in certain 
cases we have to expand the definition of who emergency 
responders are and we have to change the way we aid local 
governments. Right now, as you may know--and I will simply end 
with this--we provide overtime for State and local employees in 
the even of a disaster, but in New Orleans they had to lay off 
30,000 employees of local government because there weren't the 
resources after Katrina. So an important element in any 
revision is to recognize that it is not sufficient to just help 
pay overtime; we have to find a way to assist the government 
who have lost their tax basis after a disaster.
    Thank you very much.
    Mr. Oberstar. Well, this is splendid testimony of all five 
of our witnesses. Dr. Moss, you are a great wrap-up presenter. 
I thank you very much for your commentary.
    I want to come back to a fundamental issue here. In the 
1980s, when our Subcommittee first dealt with the issue of 
emergency preparedness and management, two separate issues, 
preparing for and then managing incidents, the real question 
was who has the first line of responsibility. Should that be a 
State or a local government agency, or should the Federal 
Government be the primary responder? The evolution of 
governmental response began perhaps in a formal way in the 
1930s, during the Dust Bowl era and the floods that resulted 
from the Dust Bowl, and then the intervention of the New Deal 
and Roosevelt. But there still was no real formalized 
structure.
    In the post-war era, as we were all, the Federal and State 
governments, responding to the threat of nuclear war, handed 
that responsibility over to civil defense, and the civil 
defense agencies all were prepared; they had structure, they 
were in almost every county in the United States, they had 
mobilization capability, they had structure, and gradually, 
gradually, cities, counties, States turned to their civil 
defense authority. We have got a flood, we have got a 
hurricane, we have got a huge blizzard here in the north 
county. Civil defense, you take charge of it, mobilize, and 
cities turned to their civil defense authority. But we didn't 
have any formalized structure.
    What we tried to do in what became known as the Stafford 
Act was to develop first line of responsibility, second line 
and backup responsibilities. So is it clear in your mind, this 
panel, where that first line of responsibility lies for 
response to and, prior to that, preparing for disasters?
    Mr. Hauer. Mr. Chairman, I don't think there is any 
question in the minds of people in this business that the first 
response is a local one, and that is supplemented by the 
response at the State level and then the Federal response. But 
the first response is and has to be at the local level; they 
own it and it is critical that it stay at the local level.
    Mr. Oberstar. Well, in the event of a massive rainfall 
resulting in a flood and tragedies of various sorts, the 
governor is the one who has to make the formal request to the 
President for assistance, and the governor is petitioned by 
local units of government.
    Mr. Hauer. Right.
    Mr. Oberstar. Is that an effective way to continue sort of 
the chain or sequencing of response to disaster?
    Mr. Gispert. Mr. Chairman?
    Mr. Oberstar. Yes.
    Mr. Gispert. I have got 28 years experience at the local 
level. The locals have to own the disaster. We are there when 
CNN goes home, when FEMA goes home, and when the Federal 
Government goes home. The reason Florida is as adept as it is 
at disasters is we developed a very good intrastate mutual aid 
system where county governments and city governments help one 
another. We are trained and our thing is we don't ask for help 
until the matters exceed our capabilities. We then first go to 
our State, who then asks the other local governments in the 
same State can you help Hillsborough County. If the answer is 
yes, we handle the situation and the Federal Government doesn't 
get involved.
    Now, there are those events that are beyond local and State 
capability. That is when we propose that FEMA and the Federal 
Government get involved. We would object to the Federal 
Government showing up on my doorstep prior to the landfall of a 
hurricane, not knowing what my needs are, because the Federal 
Government comes in like an 800 pound gorilla and sort of 
pushes their way around, and they may not have the resources 
I--if they would have waited until the event and asked me, 
Larry, what do you need, and I tell them, then they send it, 
they are going me a whole lot much better than showing up 
before the event and saying we are not here to be in charge, 
but, by the way, we are going to do it this way.
    So, yes, the locals must own it, because they will own it 
forever, and they must do everything within their capabilities 
to handle the situation. And when it exceeds their needs, then 
they ask for help.
    Mr. Oberstar. Well, that is what I heard in 1987, when we 
first addressed this issue. I am glad to see that you are 
seasoned practitioners of disaster, but, General Honore, was 
that the way it worked in New Orleans?
    General Honore. Well, that worked when you have a normal 
hurricane, and the scenario just described is what was 
happening in New Orleans before Katrina. The governor had it 
until the levees broke. If the levees hadn't broke, the system 
would have worked.
    I think in the reform of the Stafford Act not every State 
has the resources Florida has, so places like the State of 
Louisiana and the other Gulf Coast States--I mean, let's face 
it, the storm hit the two poorest States in the Nation, 
Mississippi and Louisiana, and there were a lot of problems 
there before the storm. So after the storm passed, the recovery 
of that region, a lot of the infrastructure was bent, if not 
broken, before the storm, such as the flood mitigation, the 
large population of poor people along the Gulf Coast.
    So I think the role the Federal Government can play is help 
the States preposition the right type of food, water, emergency 
communications in the State before the hurricanes come. Last 
year we saw Gustav. We saw a good effort on the evacuation, but 
we were having to move water into Texas and into--after Ike and 
after Gustav in Louisiana after the storm. That doesn't make 
any sense. We need to change that and empower the governors to 
be able to request and get pre-positioned food and water in 
their States.
    We need to also allow FEMA to publish what are the rules 
for hurricane season, Mr. Chairman. Hurricane season starts 1 
June. If you live along the Gulf Coast, you make $30,000 a 
year, you have a wife and three kids, more than likely, you are 
going to have to evacuate. If you have to evacuate, is the 
government going to reimburse you for hotels? We still haven't 
told the people that. Last year, after Gustav, the people found 
out after the storm you have to go sit in a tent somewhere for 
half a day, this is America; we again looked like a third world 
country, and apply for assistance.
    We have got to stop that. We know we are going to have to 
evacuate those populations that are in flood-prone and 
hurricane areas. We need to preregister people. And that is the 
type of thing FEMA can do if they are allowed to do it, along 
with the States, as opposed to focusing on counterterrorism. We 
need to focus on the people more, and I think if we can give 
the States the assets and they are under their control, and 
then FEMA be in support of those governors, we can recover 
quicker and we can be there more responsive to the people, sir.
    Mr. Oberstar. Thank you. You mentioned pre-positioning 
water. That was an essential element of the civil defense 
nuclear disaster preparedness. There were barrels of civil 
defense water stored in schools, in city halls, in buildings. 
People built their own shelters in their backyards and had 
water. This is not new. And hurricanes aren't new. My wife is 
from New Orleans.
    General Honore. Sir, we have got to live through----
    Mr. Oberstar. Lived through hurricanes all her life. We 
know how to deal with this. But someone wasn't coordinating, 
wasn't preparing, wasn't putting it all in place properly.
    Mr. Honore. We need a cultural shift, sir. It starts in the 
family, goes to local communities, that you are your own first 
responders. You have got to take care of your family and then 
the local community has to be empowered with pre-positioned 
stocks and the authority to spend money to get the people 
prepared. Until we do that, we are going to continue to pay $9 
for that bottle of water, when we should be paying one. For 
every dollar we spend on preparedness, we save $9 in response.
    Mr. Oberstar. That is what we are going to have to do. We 
can't have a situation where, as Joey DiFatta, who is the 
deputy--mayor is not the right word--of the Parish Council of 
St. Bernard Parish, and after hearing appeals from his 
constituents, one after another, for a FEMA trailer, and FEMA 
not doing anything, he finally, one Saturday, went over to the 
FEMA lot where they were all parked, got a wire cutter, cut the 
chain locking those FEMA trailers up, hooked one up to his 
pickup truck and hauled it out to his constituents, said here 
they are. And along the way he got a call, after about five or 
six of these, got a call from the U.S. attorney in New York 
saying I understand you are taking trailers from the FEMA park. 
Do you know that is a Federal crime? Tell me where you are. He 
said, do you think I am that foolish? You come find me and help 
me deliver these trailers.
    We don't want situations like that. This is America. We can 
and should do better. You see that in third world countries.
    Now, one question. The Federal coordinating officer and the 
principal Federal official, that created confusion in the chain 
of command. When we move this legislation, we are going to 
strike that authority for principal Federal official and leave 
Federal coordinating officer in place and restore order, rather 
than allow conflict to continue.
    Mr. Gispert. Mr. Chairman, we don't care what you call him 
or her. If you want to call it principal Federal official, that 
is fine. But we need one belly button to push as a local 
jurisdiction when we are looking for help. We don't want one 
guy looking from the political side and the other from the 
operational. Call them what you want, but tell us this is the 
person that is representing the Federal Government. If you have 
an issue and a need, you talk to that person, and that is what 
we will do. And that is why we have problems with PFO and FCO, 
because if you have both of them assigned, then who is in 
charge and who do you go to for help?
    Mr. Oberstar. Thank you for your counsel.
    I am going to ask Mrs. Napolitano to take the Chair. I will 
have to go to another meeting. I will return later, but we will 
now turn to Mr. Diaz-Balart.
    Mr. Diaz-Balart. Thank you again, Mr. Chairman.
    Again, thank all of you for your very insightful testimony.
    Before I say anything else, I want to thank you, General, 
for your service to the Country. There is nothing more 
honorable than that and, again, we are in your debt.
    All of you as well, obviously, but the General has served 
in the armed forces and, to me, there is no more honorable way 
to serve our Country.
    A couple questions. General, I was glad to hear in your 
last statement you talked about personal responsibility. My 
concern is being, again, a Floridian and seeing how Florida is 
away ahead of the curve. Not perfect, nobody is; these are 
human institutions.
    But one of the reasons that it works so well is precisely 
as you said, because there is an insistence on making sure that 
individuals know what our responsibility is, and we are 
constantly hounding that you have to be self-sufficient for 
three days. In worst case scenario, water, food, whatever it 
may be, medicine for three days because you cannot necessarily 
count on the Government coming in for those first three days. 
You hope that they will be, but you never know. Number one.
    Number two is that obviously we also have to make sure that 
we don't let the locals and States off the hook by thinking 
that the Federal Government can solve all our problems, because 
ultimately the Federal Government doesn't have fire trucks, 
ambulances, rescue. Those are local. Actually, not even the 
States. Locals have that and the State have a great 
responsibility.
    When we look at Katrina, one of the many things that we 
saw, obviously, there was a failure of FEMA, but there were 
huge failures on the local level; buses that weren't used, et 
cetera, et cetera, et cetera. No amount of Federal Government 
intervention is going to be able to solve that, and you 
mentioned that.
    If you all want to comment a little bit about that, because 
my concern is that is why I am so excited that Mr. Fugate, by 
the way, is the new Director. We could not have a better 
person. My concern is that we don't overreach to a point, then, 
that the States kind of hang back and the local governments 
hang back and say this is a Federal responsibility, we don't 
have to do as much. If you can just, if you want to touch on 
that, and then I have another question for the General once we 
touch on this, however you all want to touch on it.
    Mr. Larson. I do want to address that. You are right, the 
reality is that we are talking a lot about the response side, 
and that has to be dealt with. But if we were doing the right 
thing, what we do is avoid the response, and that is where 
mitigation comes in.
    And who has the authority to prevent these disasters from 
creating tomorrow's disasters? It is the State and local 
government, because 99 percent of how you prevent them is land 
use. Don't build in the wrong place, don't put your critical 
facilities in the wrong place, on and on and on. That is land 
use. The Federal Government doesn't have any authority under 
our Constitution for land use; it all rests with the State and 
local government. And until we devolve that responsibility to 
them, along with the money we keep throwing at them, this 
problem isn't going to change.
    Mr. Gispert. Congressman?
    Mr. Diaz-Balart. Yes, sir.
    Mr. Gispert. I am in the latter phases of my local 
government career. In fact, in 626 days I will retire.
    Mr. Diaz-Balart. But who is counting?
    Mr. Gispert. But who is counting. And I am taking these 
last two hurricane seasons as a tough love. I am looking my 
citizens in the eyes and saying the economics are bad. You 
don't want to pay taxes. You don't like local government 
because your taxes pay our salaries and you are voting to lower 
us, and we are laying people off. Then take responsibility.
    In my community, well over 80 percent of the people are 
physically, mentally, and economically capable of taking care 
of themselves. I just need to give them some guidance of where 
to go and stuff like that. The other 15 to 20 percent are the 
elderly, the infirm. Those are the ones that government can 
take care of. But I can't sort through healthy people who are 
just milling around to get to those people.
    When I tell them to evacuate, evacuate. Don't discuss it, 
get in your car and go. Okay? When we tell you to pre-register, 
and you are an 83-year-old woman that lives in a trailer in the 
center of the county, and you have no family, and you have all 
kinds of medical devices, and we have got to come get you, we 
have got to know where you are at. They don't want to register 
until the storm is 100 miles away from Tampa, and, you know, 
that is a big logistics problem of getting to them. Personal 
responsibility.
    The Conestoga wagon days, remember that from your history? 
The people marching westward. The lady was pregnant, she had 
her baby. She just got off into the bushes, had the baby, 
wrapped it up, got back in and started marching to Oregon. Be 
responsible. Be resilient. Don't count on your government for 
everything. If you do count on your government, we will all 
fail you at one time or the other, because we don't have the 
resources, manpower, and capabilities of being all things to 
all people.
    I have 1.2 million people that reside in my county. If I 
had to reach out and touch every one of them individually, it 
would take me three years to talk to them. So please help us. 
Personal responsibility. It is your responsibility. You live in 
this Country. Be prepared. The General is right on, 
preparedness is where you are at. It will save you money, save 
you time.
    Hurricane Wilma hit in 2005 in Broward County. Within an 
hour after the wind letting, people were queuing up at the 
points of distribution, wanting their water. And I asked them 
where is your hurricane kit? Congressman, you are from Florida. 
You are supposed to have a hurricane kit, right? And we asked 
them where is your hurricane kit. Duh. There were thousands of 
people standing there. The storm had just left.
    Mr. Diaz-Balart. Well, we had the case in Dade County where 
people were waiting in line to get water, when we did not lose 
water; all you had to do was open your tap and drink the water.
    Mr. Gispert. So, anyway, personal preparedness. That is my 
message for the next two years. Then, if you need help, we will 
come do the best we can. Take care of yourself.
    Thank you.
    Mr. Diaz-Balart. Yes, Mr. Hauer.
    Mr. Hauer. Congressman, we, for years, have been pushing 
people for personal preparedness. We have done it for 
earthquakes, we have done it for tornadoes, we have done it for 
hurricanes. The problem is the further you get away from an 
incident, the more complacent people become, and it is a very 
difficult task. I was the Chairman of the Central U.S. 
Earthquake Consortium.
    In 1990 we had a prediction by a scientist, who turned out 
to be a kook, that said that we were going to have an 
earthquake on the New Madrid Fault on December 2nd, 1990. 
People were spun up like I have never seen before. Everyone had 
earthquake kits; schools closed. We had close to 600 members of 
the media down in New Madrid, Missouri and Blytheville, 
Arkansas. Everybody was earthquake focused.
    If you go to that area now and ask people about their 
earthquake kits, people will look at you like you are crazy. 
And it is the same thing with pretty much any other kid of 
disaster. The further way you get from it, the more difficult 
it is to get people to prepare.
    Mr. Diaz-Balart. If I may, Madam Chairman, one last 
question, if that is all right.
    Mrs. Napolitano. [Presiding] We have a vote coming up.
    Mr. Diaz-Balart. Thank you. I will be brief.
    One of the arguments against taking FEMA out, General, or 
keeping it within DHS, is the fact that you have access to the 
military coming in. You have access to all these resources if 
FEMA is within DHS. We all remember, after Katrina, where we 
saw people on the roofs until the Coast Guard came in and 
rescued them.
    Now, my understanding is that that was done by the Coast 
Guard under its own authority, not at the request of FEMA. But 
it seems to me that obviously access to responder assets is the 
key, is the important issue that we are dealing with here. So 
we obviously need a system where FEMA has the best access 
possible to those military assets, because, when it is needed, 
it is needed in a big way.
    So if you could tell us about your experience during 
Katrina. If FEMA'S position within DHS, within that 
bureaucracy, delayed or negatively impacted the speed or the 
type of response provided by the military? Also, if you believe 
that FEMA'S access to DHS assets would be diminished if FEMA 
was taken out of DHS.
    Thank you, Madam Chair.
    General Honore. Yes, sir. I think FEMA can deal with the 
military. It dealt with them for years prior to the current 
arrangement through Department of Homeland Security, so I think 
that can happen and happen quickly. DHS adds a layer. Katrina, 
which is the construct we have now, a mayor would ask FEMA for 
10 generators. They would take it to the State person, the 
State person would take it to FEMA, FEMA would send it back to 
Washington, somebody at DHS would look at it, and then some 
lawyers would sit around. That same mayor would ask me for 
generators, I make a phone call and the generators are on the 
way.
    When we create these layers and FEMA doesn't have the 
authority to act, the people in FEMA know what to do; these are 
good people. They are good public servants. But when you create 
that layer and that protective service of DHS, which themselves 
are good people, but they are focused on security--you know, we 
were flying the people out of the Convention Center. We had a 
little tiff trying to get the airport open in New Orleans 
because the people at DHS wanted to make sure nobody was 
getting on the airplane with guns. Hello.
    So we are applying prior to Al Qaeda activities because the 
St. Bernard is trying to save the people, and you have got the 
pit bull and the German shepherd who is trying to protect them, 
and the St. Bernard loses every time.
    Mr. Diaz-Balart. Thank you. Again, thank you all for your 
service.
    Mrs. Napolitano. Thank you very much. We are running short 
of time and I wanted to be sure that we get some of the 
questions in. I will submit some questions for the record 
because I do have some.
    I do have a couple comments. Being from California, Mr. 
DeWitt, prior FEMA director, was one of the best recognized and 
beloved in California for his quick response during the 
earthquake and fires, and everything that hit California. There 
was great concern amongst a lot of us in regard to the trailers 
that were sitting and not being put into use, and then later to 
find out that some of those trailers had toxics in them that 
were hazardous to the people that might inhabit them. We are 
hoping that, as you are saying, they worry not just about the 
one aspect, but worry about the whole aspect of helping people. 
Those questions are going to be into the record.
    The other would be a program to be able to say for 
information. You talk about prevention. Back in the day, when I 
was in school, I remember going under the desk because there 
were earthquakes. We were, as children, trained. We have gotten 
away from that. We have not continued to tell people it is your 
responsibility to take care of yourself, too; it isn't just 
government to take care of you.
    But, Mr. Gispert, can you explain the consequence 
management, what it is and how it works with non-natural 
disaster events such as terrorist attacks or pandemics?
    Mr. Gispert. Yes, ma'am. Regardless of what event that is 
going on in your community that is above normal everyday 
activities, there are need for such things as alerting the 
citizens, sheltering the citizens, feeding citizens. Those are 
consequences of the event. DHS does not have the experience in 
that mode; FEMA used to have that experience. So it is our 
point of view, regardless of what happens, terrorism, pandemic 
flu, there are going to be consequences that must be managed, 
and FEMA and emergency management manages those consequences 
better than anybody else. So in order to have them focus 
strictly on catching the bad guy, who did that, focus on taking 
care of the citizens, as the General says.
    Mrs. Napolitano. Very quickly, on page 5 of your testimony, 
you state that in the last Administration FEMA served as the 
piggy bank for DHS. Can you elaborate very minimally on this, 
because I would like to give my colleague a chance to ask a 
question. Do you believe access to the large amounts of funding 
FEMA disburses through the Disaster Relief Fund is a motivating 
factor for DHS to want to retain FEMA?
    Mr. Gispert. Yes, ma'am. We were made aware of that. When 
DHS was initially stood up, there were expenses in bringing the 
Department on hand. Much of that money for those expenses of 
bringing DHS online were out of FEMA coffers.
    Mrs. Napolitano. Were there specifics?
    Mr. Gispert. I don't have the actual dollar----
    Mrs. Napolitano. Would you provide them to this Committee?
    Mr. Gispert. We will try to do that for you.
    The other thing is personnel were diverted away from their 
FEMA mission and then went to the bigger DHS mission, such as 
your public relations people, your outreach people. FEMA now 
has a very small cadre of four or five people doing that, when 
they had, at one time, 16, 17 people. Those people were 
diverted over for the Department's use. Those are the issues 
that we are talking about.
    Mrs. Napolitano. You are talking about decimating the 
personnel that really focused on FEMA.
    Mr. Gispert. Yes, ma'am.
    Mrs. Napolitano. Okay, Mr. Hauer, in your testimony, you 
stated you support legislation that FEMA be removed from DHS, 
but terrorism response must come from FEMA. H.R. 1174 would 
make FEMA responsible for the response to all hazards under the 
Stafford Act, including terrorist attacks, as FEMA did in 1993 
and 2001 in New York and 1995 in Oklahoma City. Are there other 
response activities you believe the legislation does not 
address?
    Mr. Hauer. No, I believe the legislation does address them 
all. I was concerned about the one issue with terrorism. As I 
said in my testimony, an emergency is an emergency is an 
emergency. FEMA needs to be able to coordinate the response to 
any type of incident, whether it is manmade or natural.
    Mrs. Napolitano. Thank you.
    Mr. Cao. Thank you, Madam Chairwoman.
    Madam Chairwoman, I hold in my hand here a Congressional 
study entitled A Failure of Initiatives in connection with 
FEMA'S preparation and response to Hurricane Katrina. But 
having lived through the tough and the odious task of recovery 
with thousands of people in the 2nd District, I believe FEMA'S 
greater failure lies in recovery.
    FEMA presently does not have a recovery plan, and I believe 
that the Stafford Act in its present form does not provide FEMA 
with the flexibility to address the many variables in 
connection with devastations the size of Katrina. We were able 
to, with the help of Chairman Oberstar and the Ranking Members, 
to reform the local TRO office to expedite many of the projects 
and to advance the recovery process, but I believe that FEMA 
continues to be a party in opposition rather than an agency in 
cooperation in the recovery process. FEMA'S recent denial to 
provide the necessary money to rebuild Charity Hospital is 
another indication of how FEMA is out of touch with the 
suffering poor and the struggling institutions.
    I would like to know from this panel how can we provide 
FEMA with the necessary tools for recovery. Mr. Gispert?
    Mr. Gispert. Mr. Congressman, there are four phases in 
emergency management: preparedness, response, recovery, and 
mitigation. They are four equal needs. As of late, because of 
Katrina, FEMA has focused on the response phase and the pre-
positioning of food and stuff. They need to also focus on 
recovery, how do we get the money in the right hands to get the 
community back; mitigation, how do we prevent it from 
happening.
    All four phases are equal and necessary and need attention. 
They do not need to only focus on one portion of it. If they 
do, the other three will suffer. And for it to work, all four 
must be equal, ready, raring to go, and you need to recover. 
And, yes, you are correct, in my 28 years of experience with 
FEMA, they have always failed miserably in the recovery phase, 
because the cameras have gone home, it is now two or three 
years later, you are still trying to get that elementary school 
back online, you are still trying to get the hospital back 
online, and then we get into, well, here were the rules on the 
day of the event, and we will refund this, we won't reimburse 
this. And then you get into the lawyers and everything else.
    We have not recovered money from the 2004 hurricane season 
in Florida, and it is now how long? It is now five years later. 
We will probably not recover that before I retire.
    Mr. Cao. Yes, General.
    General Honore. I echo those sentiments, but we need to 
have a cultural shift and we need to have a shift in 
government. If you look at the Tampa Bay area or you look at 
the New Orleans area or you look at the Hampton Roads, we have 
too many itty-bitty governments with too many mayors in charge 
and too many people trying to make decisions. The States are 
going to have to look at the emergency response plan, because 
who does FEMA respond to? In a parish where there are four or 
five different mayors, we have got to try to coach the States 
to be compliant in how they set up their emergency response, 
because right now it is too many people requesting assistance 
from the Federal Government at the same time.
    Mrs. Napolitano. Thank you. I think I am going to have to 
recess because we have three minutes to get across the street. 
So please hold your thoughts. We will recess until after the 
votes. Thank you.
    [Recess.]
    Mrs. Napolitano. The Committee will resume.
    Mr. Cao. [Remarks off microphone.]--especially those of the 
poor are suffering from the lack of health care, and while 
hospitals are lingering on the verge of bankruptcy because they 
took it on themselves to provide indigent care for the poor, 
while FEMA is tinkering with the values of doorknobs and 
toilets, how do you propose FEMA to be more people-centered, 
rather than rules-centered?
    Mr. Hauer. FEMA has always been rules-centric, for as long 
as I have dealt with FEMA, since it was organized under 
President Carter. The problem you run into is because they are 
giving out so much money post-disaster, they have got to have a 
set of rules, because they come in and audit it. The problem 
you run into is they do focus on doorknobs rather than 
rebuilding a hospital that sorely needs to be rebuilt, and I 
found, when I was a director in New York City and when I was a 
director in Indiana for seven years, that sometimes you just 
have to bring them to a hearing and embarrass them; and that is 
what we did.
    We had an ice storm in Indiana, when I was working for Evan 
Bayh, and they declared a major disaster but they never funded 
it. They basically told us we are going to give you X in 
dollars, but, by the way, we don't have the money. So the 
governor said to me, go to Washington. There was a FEMA 
hearing, which some of us remember, and I just beat the hell 
out of them.
    And I think as a Member of the Committee, bring them before 
the Committee and ask them why they--I think it is 
unconscionable that they are not rebuilding a hospital. I don't 
know how you can get away with that.
    Mr. Cao. Now, what I have seen in the last several months 
is that there is simply a lack of coordination between the 
different Federal agencies in the recovery process, especially 
devastation the size that Katrina cause. There is the Federal 
coordinator, but she, I believe, lacks the power to really 
coordinate the different agencies. Should FEMA be the point man 
in the recovery process and also be the coordinating entity to 
coordinate all the Federal agencies in the recovery process?
    Mr. Hauer. Yes. Absolutely. The problem is there needs to 
be one agency that coordinates a response and recovery. The 
problem is a lot of this boils down to dollars and them not 
wanting to spend the money, and that is where you run into 
trouble. They use the rules to hide behind so that they don't 
have to spend the money, and that is where you really need to 
be able to get them to come before a Committee or come before 
the public and explain why they are not providing the funding. 
It is as simple as that.
    Mr. Cao. Yes, Mr. Gispert.
    Mr. Gispert. We need rules. We are a Country of rules and 
laws. But everybody needs to know what the rules are before the 
event, and we don't need a Federal agency changing the rules as 
the event occurs.
    Now, I will give FEMA some credit. Every time they have 
ever tried to get creative, any time there was any wiggle room, 
two years after the event, the Inspector General and GAO comes 
and bangs them hard for not following the rules; and many local 
jurisdictions have had to give back money they got that they 
thought they were legitimately owed.
    So tell us what the rules are, let's explain what the 
rules, everybody understand, then let's play the ball game, and 
don't change them. In my case, in 2004, FEMA clearly said we 
will not reimburse for the removal of tree stumps after a 
storm. Well, in the middle of it they change; well, we will 
reimburse for tree stumps as long as it is in the government 
right-of-way. So then we had to go show them the hole where the 
tree existed, and we had to show them that the hole was in the 
right-of-way. That was the issue.
    It is funny because a tree stump is a tree stump. We spent 
over $30 million clearing tree stumps, for which we will not 
get reimbursed because the rules changed.
    Mr. Cao. Thank you very much, Mr. Gispert. Our time has 
expired.
    Thank you, Mr. Chairman.
    Mr. Nadler. [Presiding] Thank you.
    If there are no further questions or questioners, I thank 
the witnesses for their attendance, I thank the Members, and I 
declare the hearing adjourned.
    [Whereupon, at 2:33 p.m., the Committee was adjourned.]

    [GRAPHIC] [TIFF OMITTED] T9948.010
    
    [GRAPHIC] [TIFF OMITTED] T9948.011
    
    [GRAPHIC] [TIFF OMITTED] T9948.012
    
    [GRAPHIC] [TIFF OMITTED] T9948.013
    
    [GRAPHIC] [TIFF OMITTED] T9948.014
    
    [GRAPHIC] [TIFF OMITTED] T9948.015
    
    [GRAPHIC] [TIFF OMITTED] T9948.016
    
    [GRAPHIC] [TIFF OMITTED] T9948.017
    
    [GRAPHIC] [TIFF OMITTED] T9948.018
    
    [GRAPHIC] [TIFF OMITTED] T9948.019
    
    [GRAPHIC] [TIFF OMITTED] T9948.020
    
    [GRAPHIC] [TIFF OMITTED] T9948.021
    
    [GRAPHIC] [TIFF OMITTED] T9948.022
    
    [GRAPHIC] [TIFF OMITTED] T9948.023
    
    [GRAPHIC] [TIFF OMITTED] T9948.024
    
    [GRAPHIC] [TIFF OMITTED] T9948.025
    
    [GRAPHIC] [TIFF OMITTED] T9948.026
    
    [GRAPHIC] [TIFF OMITTED] T9948.027
    
    [GRAPHIC] [TIFF OMITTED] T9948.028
    
    [GRAPHIC] [TIFF OMITTED] T9948.029
    
    [GRAPHIC] [TIFF OMITTED] T9948.030
    
    [GRAPHIC] [TIFF OMITTED] T9948.031
    
    [GRAPHIC] [TIFF OMITTED] T9948.032
    
    [GRAPHIC] [TIFF OMITTED] T9948.033
    
    [GRAPHIC] [TIFF OMITTED] T9948.034
    
    [GRAPHIC] [TIFF OMITTED] T9948.035
    
    [GRAPHIC] [TIFF OMITTED] T9948.036
    
    [GRAPHIC] [TIFF OMITTED] T9948.037
    
    [GRAPHIC] [TIFF OMITTED] T9948.038
    
    [GRAPHIC] [TIFF OMITTED] T9948.039
    
    [GRAPHIC] [TIFF OMITTED] T9948.040
    
    [GRAPHIC] [TIFF OMITTED] T9948.041
    
    [GRAPHIC] [TIFF OMITTED] T9948.042
    
    [GRAPHIC] [TIFF OMITTED] T9948.043
    
    [GRAPHIC] [TIFF OMITTED] T9948.044
    
    [GRAPHIC] [TIFF OMITTED] T9948.045
    
    [GRAPHIC] [TIFF OMITTED] T9948.046
    
    [GRAPHIC] [TIFF OMITTED] T9948.047
    
    [GRAPHIC] [TIFF OMITTED] T9948.048
    
    [GRAPHIC] [TIFF OMITTED] T9948.049
    
    [GRAPHIC] [TIFF OMITTED] T9948.050
    
    [GRAPHIC] [TIFF OMITTED] T9948.051
    
    [GRAPHIC] [TIFF OMITTED] T9948.052
    
    [GRAPHIC] [TIFF OMITTED] T9948.053
    
    [GRAPHIC] [TIFF OMITTED] T9948.054
    
    [GRAPHIC] [TIFF OMITTED] T9948.055
    
    [GRAPHIC] [TIFF OMITTED] T9948.056
    
    [GRAPHIC] [TIFF OMITTED] T9948.057
    
    [GRAPHIC] [TIFF OMITTED] T9948.058
    
    [GRAPHIC] [TIFF OMITTED] T9948.059
    
    [GRAPHIC] [TIFF OMITTED] T9948.060
    
    [GRAPHIC] [TIFF OMITTED] T9948.061
    
    [GRAPHIC] [TIFF OMITTED] T9948.062
    
    [GRAPHIC] [TIFF OMITTED] T9948.063
    
    [GRAPHIC] [TIFF OMITTED] T9948.064
    
    [GRAPHIC] [TIFF OMITTED] T9948.065
    
    [GRAPHIC] [TIFF OMITTED] T9948.066
    
    [GRAPHIC] [TIFF OMITTED] T9948.067
    
    [GRAPHIC] [TIFF OMITTED] T9948.068
    
                                    

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
